                                                       NAnONAL SCIENCE FOUNDA nON
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESnGAnONS

                                               CLOSEOUT MEMORANDUM

Case Number: Allll0082                                                                    Page 1 ofl



                 We assessed an allegation that a proposal 1 submitted to NSF failed to disclose related
         previous work. Examination of the proposal text and figures, accompanying documents, and the
         stated research goals shows no evidence of misappropriation of credit for previous work, or
         willful nondisclosure of this work.

                   Accordingly, this case is closed.




NSF OIG Fonn 2 (11102)
